        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Cyber Security Risk Management
Practices at the Bonneville Power
Administration




DOE/IG-0807                      December 2008
                                Department of Energy
                                     Washington, DC 20585

                                     December 9, 2 0 0 8



 MEMORANDUM FOR THE SECRETARY

 FROM:
                          Inspector General

SUBJECT:                  Audit Report on "Cyber Security Risk Management Practices at
                          the Bonneville Power Administration"

BACKGROUND

The Bonneville Power Administration (Bonneville) provides electrical power to millions
of custoniers in eight states in the Pacific Northwest. To support this critical function,
Bonneville makes extensive use of a number of information systems to conduct various
activities, including financial management, operation of extensive electricity transmission
systems, and marketing and transferring wholesale electrical power. Some of
Bonneville's most sensitive systems are used to help control the flow of electricity to the
power grid. Should any of these control systems be rendered inoperable for an extended
period, Bonneville's customer base could be adversely impacted.

To help identify and manage risk, all Federal entities are required to certify and accredit
(C&A) their information systems. The C&A process is a recognized, methodical process
designed to ensure that information systems are secure prior to beginning operation and
that they remain so throughout their lifecycle. The C&A process includes specific steps
to recognize and address risks, determine whether system security controls are in place
and operating effectively, and ensure that changes to a system are adequately tested and
approved. In light of the growing threat to security over information systems supporting
critical infrastructure, we initiated this audit to determine whether Bonneville's cyber
security program adequately protected its data and information systems.

RESULTS OF AUDIT

Bonneville had taken steps designed to strengthen its cyber security program. Our
review, however, identified risk management weaknesses related to the C&A of
Bonneville's critical information systems. If not adequately addressed, these weaknesses
could adversely impact the security of Bonneville's critical systems and the data they
contain. In particular, Bonneville had not always:

         Appropriately identified and addressed potential risks to critical systems and
         data, to include systems controlling electricity transmission;

         Ileveloped adequate security plans for each of the four systems we reviewed;




                                 @     Printed with soy ink on rrcycled paper
         Ensured that physical and cyber security controls were tested and operating as
         intended; and,

         Developed corrective action plans necessary to resolve weaknesses in a number
         of important control areas.

Problems with the certification of these systems - some of which are integral to
controlling electrical transmission to western portions of the U.S. - were attributable to
Bonneville's failure to fully adopt a risk-based approach for implementing security
controls that satisfied Federal requirements. In addition, Bonneville had not adequately
emphasized the importance of a robust cyber security program through involvement of
system and information owners. Without in~provements,Boimeville's systems, including
those that support the western energy control area's critical infrastructure, may not be
adequately protected from external attacks, insider threats, or inadvertent mistakes.

'To its credit, Bonneville had recognized problems with its cyber risk management
program and was taking action to address certain weaknesses. For instance, it was
working to formally re-approve certain systems for operation through the C&A process.
In addition, Bonneville noted that it had begun development of cyber security manuals
designed to define security responsibilities for system and information owners and
continued to maintain strong controls against network system intrusions.

These actions are positive steps that should help Bonneville strengthen the protective
measures applied to its critical information systems. Our report contains several
recomn~endationsfor additional action that, if fully implemented, should help Bonneville
improve its overall cyber security posture.

MANAGEMENT REACTION

Management concurred with the report's recommendations and pledged to correct
problems with its cyber risk management program. Bonneville acknowledged risk
management problems, however, it noted that C&A, while important, is but one part of
its overall cyber security program. Management's comments and our response are more
fully discussed in the body of the report. Management's comments are included in their
entirety in Appendix 3.

Attachment

cc: Acting Deputy Secretary
    Chief of Staff
    Administrator, Bonneville Power Administration
    Chief Information Officer
    Chief Health, Safety and Security Officer
REPORT ON CYBER SECURITY RISK MANAGEMENT
PRACTICES AT THE BONNEVILLE POWER ADMINISTRATION

TABLE OF
CONTENTS

Protection of Information Systems

Details of Finding ................................................................................................................1

Recommendations and Comments.......................................................................................7

Appendices

1.    Objective, Scope, and Methodology ............................................................................9

2.    Prior Reports...............................................................................................................10

3.    Management Comments.............................................................................................12
Protection of Information Systems

Ensuring Security     The certification and accreditation (C&A) process is
over Information      designed to ensure that information systems are secure
Systems               prior to beginning operation and that they remain so
                      throughout their lifecycle. The C&A process includes
                      formal steps to recognize and address risks, determine
                      whether system security controls are in place and operating
                      effectively, and ensure that changes to a system are
                      adequately tested and approved. The National Institute of
                      Standards and Technology (NIST) emphasizes the
                      importance of an effective C&A process when developing
                      and implementing information systems. Specifically, NIST
                      notes that "The successful completion of the security
                      certification and accreditation process provides agency
                      officials with the necessary confidence that the information
                      system has adequate security controls, that any
                      vulnerabilities in the system have been considered in the
                      risk-based decision to authorize processing, and that
                      appropriate plans and funds have been identified to correct
                      any deficiencies in the information system." Reporting
                      instructions published annually by the Office of
                      Management and Budget (OMB) for the Federal
                      Information Security Management Act require that Federal
                      organizations adhere to NIST cyber security related
                      directives/guidance.

                      Our review of the Bonneville Power Administration
                      (Bonneville or BPA) revealed, however, that it had not
                      fully implemented Federal requirements for certifying and
                      accrediting a number of its systems. Specifically, we noted
                      that responsible officials had not always identified and
                      addressed system risks and system security plans were
                      either not developed or were missing descriptions of key
                      controls needed to protect information. In addition, testing
                      of security controls was sometimes not conducted,
                      insufficient, or was not appropriately documented.
                      Corrective action plans were also not always developed to
                      address identified weaknesses in a timely manner.

                                   Risk Identification and Mitigation

                      Although specifically required by Federal and Department
                      of Energy (Department) directives, responsible officials
                      had not always ensured that risks to information systems
                      were appropriately identified and mitigated. Specifically,
                      we found that formal risk assessments had not been
                      conducted and/or finalized and that contingency plans had
                      not always been developed to address recovery from a
________________________________________________________________
Page 1                                            Details of Finding
                          system disruption. In particular, a formal risk assessment
                          had not been completed for any of the four systems we
                          reviewed. Although a draft assessment was prepared for
                          the Control Center System (CCS) more than a year prior to
                          our review, 5 of the 14 identified risks were missing key
                          elements such as the analyses of vulnerabilities and their
                          related impact. In addition, the CCS risk assessment was
                          never finalized.
                          While a report developed by the certification agent
                          attempted to analyze risks, it excluded information
                          associated with NIST controls relevant to identification and
                          authentication, physical and environmental protection, and
                          systems and communications protection even though these
                          areas had controls described as failing during certification
                          testing. The report also disclosed that without complete
                          risk information, "it is difficult to objectively assess the
                          validity and veracity of existing security controls and
                          control enhancements, and to recommend those which will
                          most effectively mitigate risks to the information system."
                          Due to the lack of adequate risk assessments, Bonneville
                          may not have been able to effectively detect risks
                          associated with the systems we reviewed.
                          In some circumstances, Bonneville had not developed
                          adequate contingency plans to ensure that information
                          systems and data could be recovered in the event of a
                          significant outage or disaster. For example, plans had been
                          developed for only two of the four systems reviewed.
                          However, one of the plans was never completed and the
                          other did not cover more than 30 sub-systems. Subsequent
                          to our site visits, Bonneville developed plans for 12 major
                          sub-systems included in the CCS; however, plans for 22
                          other sub-systems remained incomplete. Although
                          Bonneville commented that recovery strategies were in
                          place for the remaining sub-systems, our review of the
                          contingency plan for the CCS revealed that these systems
                          were not specifically covered by the plan. We also noted
                          that Bonneville had not developed a business impact
                          analysis to determine the impact to operations in the event
                          of a disaster and to aid in prioritizing system restoration
                          activities.

                                               Security Planning

                      We also identified problems with the security planning
                      process at Bonneville. Specifically, Bonneville allowed
                      system accreditations to expire and had not developed
________________________________________________________________
Page 2                                                       Details of Finding
                      security plans for all systems. Even when developed, plans
                      for each of the systems reviewed did not always provide
                      information relevant to system-specific risks or controls to
                      be implemented. For instance:

                         •   While systems should be re-accredited for operation
                             at least once every three years to account for
                             changes in technology and related risks, Bonneville
                             had permitted accreditations to expire for two of
                             four systems reviewed. Bonneville officials noted
                             that the systems with expired accreditations had
                             been incorporated into another larger system and
                             they had initiated action to re-accredit the larger
                             system. However, the decision to incorporate the
                             systems was not made until four months after the
                             accreditations expired. The effort to re-accredit the
                             system remained incomplete at the time we
                             completed our review.

                         •   Security plans had not been developed for various
                             systems at Bonneville. NIST directs that major
                             applications have their own security plan that
                             describes relevant controls, including those that are
                             inherited from a larger security plan. However,
                             even though the CCS contained at least 12 major
                             sub-systems, including those that contributed to the
                             reliability of grid operations, security plans had not
                             been developed to define control requirements
                             unique to those systems. In addition, our review of
                             the larger security plan revealed that it did not
                             adequately describe which controls were to be
                             inherited by the major sub-systems. The
                             importance of developing system-specific plans was
                             emphasized in a May 2007 report prepared by
                             Bonneville system owners and the certification
                             agent that disclosed that 144 of 235 system controls
                             (61 percent) had findings associated with them and
                             included a recommendation that security plans be
                             developed for the 12 major sub-systems.

                         •   Even when security plans were developed, they
                             generally were incomplete and lacked descriptions
                             of how minimum security controls were
                             implemented to meet Federal requirements.
                             Specifically, plans for all four systems reviewed
                             excluded information critical to assessing risks to
                             systems. For example, the security plan for the
________________________________________________________________
Page 3                                            Details of Finding
                             CCS did not adequately describe certain controls to
                             be implemented in the areas of access controls and
                             configuration management. Our review of the
                             Business Information Technology (IT)
                             Infrastructure System disclosed that officials had
                             not documented, and were not aware of, the number
                             of sub-systems and applications residing within this
                             plan.

                                       Security Control Testing

                      Additionally, we identified problems with security control
                      testing for each of the systems reviewed at Bonneville.
                      Specifically, certification testing – a detailed review of an
                      information system's security controls generally performed
                      every three years – was either not performed or not
                      adequately conducted. Required annual self-assessments of
                      security controls were also not always completed. Without
                      adequate control testing, management lacked assurance that
                      security controls were operating as intended.

                      We found that although Bonneville conducted control
                      testing on its overall general support systems during the
                      initial system certification activities, it did not test the
                      effectiveness of controls on major sub-systems. In cases
                      where certification testing occurred, it was sometimes
                      inadequate or conclusions reached did not reflect the status
                      of the control environment. For instance, we identified 29
                      controls for the CCS that were rated as passing by the
                      certification agent even though the system security plan
                      and/or self-assessment documentation disclosed that the
                      controls were not in place. Similar disparities were noted
                      on the Business IT Infrastructure System. As a result,
                      Bonneville officials may have been prevented from
                      effectively taking corrective actions to address weaknesses
                      in system controls because they lacked data on specific
                      weaknesses that could have been exposed by testing.

                      Although NIST notes that an effective information security
                      program includes testing and evaluation of security controls
                      at least annually, Bonneville had not conducted thorough
                      annual self-assessments on any of the systems reviewed in
                      years when certification testing had not occurred. We
                      noted that Bonneville had implemented a continuous
                      monitoring program that always assessed the same subset
                      of controls each year. However, cyber security officials

________________________________________________________________
Page 4                                            Details of Finding
                      estimated that these assessments only tested about 20-25 of
                      the 235 controls included in NIST Special Publication
                      800-53. As such, this process did not meet the OMB
                      requirement that "Agencies should develop an enterprise-
                      wide strategy for selecting subsets of their security controls
                      to be monitored on an ongoing basis to ensure all controls
                      are assessed during the three-year accreditation cycle."

                                           Corrective Actions

                      Although OMB requires that plans of action and milestones
                      (POA&M) be developed to assist in identifying, assessing,
                      prioritizing, and monitoring the progress of corrective
                      efforts for security weaknesses found in programs and
                      systems, Bonneville had not always developed plans to
                      address weaknesses in a number of control areas.
                      Specifically, adequate POA&Ms or corrective action plans
                      to track its efforts for correcting all identified weaknesses
                      had not been developed. In particular, although a POA&M
                      was developed for the CCS, detailed corrective action plans
                      were not established for various weaknesses to show what
                      tasks were to be completed, when they were to be
                      completed, and who was responsible for monitoring the
                      corrective actions. Bonneville also did not develop similar
                      plans for its other systems. Absent adequate corrective
                      action plans, Bonneville may have difficulty managing its
                      progress towards eliminating gaps between required
                      security controls and those that are actually in place.

Security Approach     Many of the weaknesses identified occurred because
and System Owner      management had not fully adopted a risk-based approach
Involvement           for identifying and implementing security controls over its
                      information systems in accordance with Federal
                      requirements. In addition, inconsistent involvement from
                      system and information owners contributed to inadequate
                      documentation and testing of cyber security controls.

                                         Risk-Based Approach

                      Although required by NIST, Bonneville management did
                      not emphasize the importance of utilizing a risk-based, life-
                      cycle approach to manage cyber security. In particular,
                      Bonneville addressed security plans and tested the controls
                      only during the certification process, which generally
                      occurs only every three years. For instance, Bonneville had
                      temporarily assigned an individual to develop the system
                      security plan and assess security controls for the Business
________________________________________________________________
Page 5                                            Details of Finding
                      Enterprise System in 2004. However, after completing
                      these activities, he was assigned to work elsewhere and no
                      replacement was ever assigned to continue monitoring
                      security controls.

                      Additionally, responsible officials had not appropriately
                      prioritized the application of resources towards cyber
                      security activities to ensure an effective cyber security
                      program. For example, key Bonneville executives and
                      managers chose to dedicate resources to identifying and
                      testing certain controls to meet the requirements of OMB
                      Circular A-123 and North American Electric Reliability
                      Corporation critical infrastructure protection standards.
                      However, this effort did not comport with NIST
                      requirements in that it did not ensure that cyber security
                      controls on all systems within the organization were
                      adequately implemented and tested.

                      Bonneville officials acknowledged that the Administration
                      needed to improve its C&A process but believed that C&A
                      was but one component of its overall cyber security
                      program. Management told us that in spite of the problems
                      we identified with its risk management process, its systems
                      were not in imminent danger of compromise. Bonneville
                      noted that penetration and vulnerability testing performed
                      by the Department's Office of Health, Safety and Security
                      (HSS) in March 2007 had failed to gain control over its
                      critical systems, including those that control power
                      distribution. Although HSS did not gain control of any
                      systems during the March 2007 testing, it did identify a
                      number of high-risk configuration weaknesses and noted
                      that "BPA had not fully considered cyber threats to the
                      Control Center Network in their threat assessments and
                      threat statement so that they can conduct valid risk
                      assessments to identify and mitigate cyber security risks."
                      While Bonneville commented that it had developed strong
                      technical controls, a robust C&A process is necessary to
                      ensure that such controls remain effective, adequately
                      address risks, and are changed as needed over the system
                      life cycle.

                             System and Information Owner Involvement

                      Although NIST directs that information and system owners
                      actively participate in the security planning process,
                      Bonneville did not adequately involve these key individuals
                      in planning and developing controls. System and
________________________________________________________________
Page 6                                            Details of Finding
                       information owners, who are not a part of the cyber
                       security function, have the most direct knowledge of the
                       system and the information it contains and also have
                       primary responsibility for determining access and securing
                       these resources. However, these key individuals were not
                       consulted when deciding what security controls should be
                       in place to protect systems or to ensure that the controls
                       were operating as intended. Bonneville did not ensure that
                       system and information owners devoted adequate attention
                       toward securing the systems that protected critical
                       information. Those individuals who had system and
                       information owner responsibilities, such as developing
                       security plans and risk assessments, had not been identified.
                       Rather, Bonneville inappropriately left such tasks to its
                       already small cyber security staff. To its credit, Bonneville
                       had begun to develop cyber security manuals to identify
                       security responsibilities for system and information owners.

Information Security   Without improvements, critical information systems
and Assurance          maintained by Bonneville to protect national and economic
                       security and contribute to public safety and health could
                       potentially be disrupted. The need for a strong risk-
                       management program becomes apparent when one
                       considers that the number of cyber security incidents
                       reported to the Department's Computer Incident Advisory
                       Capability is at its highest level in three years. A further
                       illustration of the importance of a robust cyber security
                       program is shown in the results of a 2004 report regarding
                       inappropriately protected systems. The report noted that
                       the number of externally generated cyber incidents related
                       to control systems had increased significantly in past years.
                       In addition to these reported external attacks, Bonneville's
                       systems could also be impacted by inadvertent or malicious
                       acts of insiders, or disgruntled former employees. Without
                       complete information, individuals responsible for
                       approving systems for operation may continue to do so
                       without fully understanding the risks associated with not
                       implementing certain security controls.

RECOMMENDATIONS        To address the issues identified in this report, we
                       recommend that the Bonneville Administrator:

                          1. Establish a risk-based, life-cycle approach for
                             implementing its information security program that
                             allows management and information owners to
                             make informed and cost-effective decisions, to
                             include:
________________________________________________________________
Page 7                               Recommendations and Comments
                                a. Ensuring risks to information resources are
                                   assessed periodically, including
                                   development of contingency plans;

                                b. Fully developing security plans and ensuring
                                   that systems are timely accredited for
                                   operation;

                                c. Verifying that necessary security controls
                                   are sufficiently tested for each system, to
                                   include conducting annual control
                                   assessments and ensuring that conclusions
                                   reached are supported by the test results;
                                   and,

                                d. Maintaining a complete POA&M, to include
                                   updated corrective action plans for all
                                   identified weaknesses.

                        2. Re-evaluate how to apply entity resources toward
                           information security program efforts, to include
                           actively engaging system and information owners
                           outside of the cyber security function in risk-based
                           decisions.

MANAGEMENT           Bonneville expressed concerns with some of the assertions
REACTION             made in the report, but concurred with the recommendations
                     and indicated that it would develop a plan of action to
                     address each of the identified weaknesses. Although
                     Bonneville believed that it had an adequate risk assessment
                     process, management agreed that it did not have sufficient
                     risk-based C&A documentation and disclosed that it would
                     work towards ensuring that systems are both secure and fully
                     documented. Management also commented that it had made
                     a number of improvements that should enhance its cyber
                     security program.

AUDITOR              Management's proposed and stated actions are responsive
COMMENTS             to our recommendations. We continue to believe that the
                     implementation of strong risk management and C&A
                     processes will enhance Bonneville's ability to protect it
                     systems. As noted by OMB in its Federal Information
                     Security Management Act reporting instructions, the C&A
                     process provides a systematic approach for assessing
                     security controls to determine their overall effectiveness,
                     which is critical to determining the risk to an organization's
                     operations and assets.
________________________________________________________________
Page 8                               Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Bonneville Power Administration
                      (Bonneville) cyber security program adequately protected its
                      data and information systems.
SCOPE                 The audit was performed between October 2007 and August
                      2008 at the Bonneville corporate offices.
METHODOLOGY           To accomplish our objective, we:
                         •   Reviewed Federal regulations, Department of Energy
                             (Department) directives, critical infrastructure
                             protection standards, and guidance pertaining to
                             certification and accreditation of information systems;
                         •   Reviewed prior reports issued by the Office of
                             Inspector General, the Government Accountability
                             Office, and the Department's Office of Health, Safety
                             and Security;
                         •   Reviewed program-level policies relevant to security of
                             information systems;
                         •   Held discussions with program officials from
                             Bonneville; and,
                         •   Selected four systems for review to determine whether
                             relevant cyber security requirements had been
                             implemented.
                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe the evidence obtained provides a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      The audit included tests of internal controls and compliance
                      with laws and regulations to the extent necessary to satisfy the
                      audit objective. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies that
                      may have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 relevant to security over
                      information systems. We found that Bonneville had not
                      established measures specific to this area. We did not rely on
                      computer-processed data to satisfy our audit objective.
                      Bonneville waived an exit conference.



________________________________________________________________
Page 9                              Objective, Scope, and Methodology
Appendix 2

                                     PRIOR REPORTS

Office of Inspector General Reports

   •   Special Report on Management Challenges at the Department of Energy (DOE/IG-
       0782, December 2007). The Office of Inspector General (OIG) identified seven
       significant management challenges facing the Department of Energy (Department),
       including cyber security. The report noted that although the Department had in place
       an aggressive effort to address existing weaknesses, we continued to identify
       deficiencies, including problems relevant to the Department's certification and
       accreditation (C&A) of unclassified information systems.

   •    Audit Report on Continuity of Operations at Bonneville Power Administration
       (DOE/IG-0781, November 2007). The OIG found that the Bonneville Power
       Administration's (Bonneville) continuity of operations capability was not fully
       compliant with Federal requirements. Specifically, Bonneville (1) needed to improve
       its alternate operating capabilities for power scheduling and transmission scheduling;
       (2) did not have specific devolution plans for power scheduling, transmission
       scheduling, and system operations; and, (3) could not always provide evidence that its
       Continuity of Operations Planning capabilities were periodically tested or that lessons
       learned were identified and implemented.

   •    Evaluation Report on the Department's Unclassified Cyber Security Program - 2007
       (DOE/IG-0776, September 2007). The evaluation identified continued deficiencies in
       the Department's cyber security program that exposed its critical systems to an
       increased risk of compromise. In particular, weaknesses existed relevant to system
       C&A, contingency planning, access controls, configuration management, and change
       controls. Problems occurred, at least in part, because Department organizations had not
       always ensured that Federal requirements, Department policies, and cyber security
       controls were adequately implemented and conformed to Federal requirements, most
       notably by field organizations and facility contractors.

   •    Audit Report on Certification and Accreditation of Unclassified Information Systems
       (DOE/IG-0752, January 2007). Many systems were not properly certified and
       accredited prior to becoming operational. For example, 9 of 14 sites reviewed had not
       always properly categorized security levels or risk of damage to major or general
       support systems and information contained within, or had not adequately tested and
       evaluated security controls. In many instances, senior agency officials accredited
       systems although required documentation was inadequate or incomplete, such as
       incomplete inventories of software and hardware included within defined accreditation
       boundaries.

   •   Audit Report on Management Controls over Selected Departmental Critical
       Monitoring and Control Systems (OAS-M-05-06, June 2005). The OIG found that the
       Department could not ensure that it could continue operations or quickly restore


________________________________________________________________
Page 10                                               Prior Reports
Appendix 2 (continued)

      selected critical monitoring and control systems in the event of an emergency.
      Specifically, management had not fully assessed risks or taken adequate steps to
      mitigate the foreseeable risks confronting the six critical monitoring and control
      systems reviewed. This issue occurred because site management had not sufficiently
      considered and periodically evaluated the risk that critical monitoring and control
      systems would become inoperable and unable to be restored in a timely manner.

  •    Audit Report on Power Marketing Administration Infrastructure Protection (OAS-B-
      03-01, April 2003). Western Area Power Administration (Western) and Southwestern
      Power Administration had not adequately assessed the vulnerabilities and risks for their
      critical assets. Vulnerability and risk assessments at Western were inadequate because
      management was primarily concerned about recovering from any disruption in
      operations, regardless of its source.




________________________________________________________________
Page 11                                              Prior Reports
Appendix 3




________________________________________________________________
Page 12                                      Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                      Management Comments
                                                             IG Report No. DOE/IG-0807

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
